Cite as 2020 Ark. 401

SUPREME COURT OF ARKANSAS
No. CV-20-278
Opinion Delivered: December 3, 2020

LEE CHARLES MILLSAP
APPELLANT
V.

PRO SE APPEAL FROM THE
LINCOLN COUNTY CIRCUIT COURT
[NO. 40CV-20-37]

DEXTER PAYNE, DIRECTOR,
HONORABLE JODI RAINES DENNIS,
ARKANSAS DEPARTMENT OF
JUDGE
CORRECTION
APPELLEE
AFFIRMED.

RHONDA K. WOOD, Associate Justice
Lee Charles Millsap appeals the circuit court’s denial of his pro se petition for writ of
habeas corpus. He contends that he is being illegally held because there was a defect in the
amended felony information, he was not afforded a speedy trial, and his attorney was
ineffective for not raising this issue. Because these are not grounds for habeas relief, we
affirm the circuit court’s order.
I. Background
In 1998, Millsap entered a plea of guilty to capital murder, first-degree terroristic
threatening, and second-degree battery. He was sentenced to an aggregate term of life
imprisonment without parole. In 2020, Millsap petitioned for writ of habeas corpus. The
circuit court concluded none of the allegations were cognizable in a habeas proceeding and
denied relief. Millsap appealed.

CVJ
\

II. Grounds for Issuance of the Writ
A writ of habeas corpus is proper when a judgment and commitment order is facially
invalid or when a circuit court lacks jurisdiction over the case. Foreman v. State, 2019 Ark.
108, 571 S.W.3d 484. Jurisdiction is the power of the court to hear and determine the
subject matter in controversy. Baker v. Norris, 369 Ark. 405, 255 S.W.3d 466 (2007). When
the trial court has both personal jurisdiction over the appellant and jurisdiction over the
subject matter, the court has authority to adjudicate the case. Johnson v. State, 298 Ark. 479,
769 S.W.2d 3 (1989).
A petitioner who does not allege his actual innocence and proceed under Act 1780
of 2001, must plead either the judgment was facially invalid or the trial court lacked
jurisdiction and show probable cause, by affidavit or other evidence, that he is being illegally
detained. Ark. Code Ann. § 16-112-103(a)(l) (Repl. 2016). A circuit court’s inquiry is
limited to the facial validity of the judgment and commitment order. McArthur v. State, 2019
Ark. 220, 577 S.W.3d 385. Unless the petitioner can show that the trial court lacked
jurisdiction or that the commitment order was facially invalid, there is no basis for issuing a
writ of habeas corpus. Fields v. Hobbs, 2013 Ark. 416. This court will uphold a circuit court’s
decision on a petition for writ of habeas corpus unless it is clearly erroneous. Hobbs v. Gordon,
2014 Ark. 225, 434 S.W.3d 364. A decision is clearly erroneous when the appellate court,
after reviewing the entire evidence, is left with the definite and firm conviction that a
mistake has been made. Id.

2.

III. Claims for Relief
First, Millsap argues that when the State amended the felony information and added
the charge of second-degree battery, it neglected to have it signed by the circuit clerk. He
argues this failure rendered the information constitutionally invalid and deprived the trial
court of jurisdiction to accept his guilty plea and enter the judgment. This court has held
that information-signature allegations are not jurisdictional. Randle v. Straughn, 2020 Ark.
117, at 3, 595 S.W.3d 361, 364. This makes an information potentially voidable, rather than
void, and a defendant must raise this at the time of trial. Id. When a defendant enters a plea
of guilty, the plea is his trial, and a habeas corpus proceeding does not allow a prisoner to
retry his case. Finney v. Kelley, 2020 Ark. 145, at 5, 598 S.W.3d 26, 29. The circuit court
did not err in denying habeas relief on this claim.
Millsap’s second claim for habeas relief is that the State failed to afford him a speedy
trial. As part of this claim, Millsap asserts that his counsel was ineffective for not making a
motion for dismissal and instead allowing him to enter a guilty plea. Although Millsap
pleaded guilty fourteen months after the first felony information was filed, his allegation is
insufficient here. A petitioner’s speedy-trial-violation claim is not within the purview of a
habeas proceeding because it is a claim of trial error that does not implicate the facial validity
of the judgment or the jurisdiction of the trial court. Williams v. Kelley, 2017 Ark. 200, at
4, 521 S.W.3d 104, 107. When Millsap argues that his attorney was ineffective for not
raising the speedy-trial issue, habeas is the incorrect avenue. Defendants should raise
allegations of ineffective assistance of counsel in a timely filed petition under Arkansas Rule
of Criminal Procedure 37.1 (2019). A habeas proceeding does not replace timely filing this

3

V

*’

petition. Davis v. Kelley, 2019 Ark. 1, at 3, 564 S.W.3d 512, 514. Again, the circuit court
did not err in denying habeas relief on this ground. For the above reasons, we affirm.
Affirmed.
:

HART,}., dissents.

JOSEPHINE Linker Hart, Justice, dissenting. I dissent for the reasons stated in
Noble v. State, 2019 Ark. 284, 585 S.W.3d 671 (Hart, J., dissenting).
I dissent.
Lee Charles Millsap, pro se appellant.
Leslie Rutledge, Att’y Gen., by: David L. Eanes Jr., Ass’t Att’y Gen., for appellee.

1

!

4 .

r ■

ELECTRONICALLY FILED
Lincoln County Circuit Court
Cindy Glover, Circuit Clerk

2020-Mar-26 09:54:45
40CV-20-37
C11WD05: 1 Page

IN THE CIRCUIT COURT OF LINCOLN COUNTY, ARKANSAS
ELEVENTH JUDICIAL DISTRICT, WEST - FIFTH DIVISION
LEE CHARLES MILLSAP, JR.
Inmate# 113121

S'

PETITIONER
, .No. 40CV-20-37-5

. ..v.

DEXTER PAYNE, DIRECTOR
ARKANSAS DEPARTMENT OF CORRECTION

RESPONDENT '

ORDER DISMISSING PETITION FOR WRIT OF HABEAS CORPUS
On this day comes on for consideration the, petition for writ of habeas corpus filed on
February 26, 2020. From , the exfljj3i0.ati.pn of the pleadksgs and review of applicable Jaw, the Court
finds as follows:
The petitioner states that he entered a negotiated plea of guilty to capital murder, terroristic
threatening in the first degree and battery in the second degree and was sentenced to life without
parole, six years and six years in the Arkansas. Department of Correction. Petitioner alleges, that, he is
entitled to habeas relief because the amendment to his Information was defective, his right to a speedy
trial was violated, and his attorney was ineffective. None of petitioner’s claims are cognizable in a
habeas matter.

Y

The petitioner should have addressed these allegations on the trial court level, on

direct appeal, or in a timely post-conviction proceeding.

w

The petition is DENIED and DISMISSED.
IT IS SO ORDERED this 25th day of March 2020.

JODI RAINES DENNIS
CIRCUIT JUDGE
cc:

Lee Charles Millsap, Jr.
Inmate # 113121
Varner Unit
P. O. Box 600
Grady, AR 71644

EM

Y

A

>1

